                             O ffice of th e Ins pe ctor Ge ne ral



K e nne th S. A pfe l

Com m is s ione r of SocialSe curity


Ins pe ctor Ge ne ral



Suppl e m e ntalSe curity Incom e Pl
                                   ans for A ch ie ving Se l
                                                           f-Support Pre pare d by

For-Profit O rganizations


Th e attach e d finalm anage m e nt advis ory re port pre s e nts th e re s ul
                                                                             ts of our re vie w
of Suppl     e m e ntalSe curity Incom e pl
                                          ans for ach ie ving s e l
                                                                  f-s upport pre pare d by
for-profit organizations (A-07-9 6-61016). Th e obje ctive s of our re vie w w e re to
obtain inform ation on th e fe e s ch arge d by for-profit organizations and th e s cope of
th e ir s e rvice s .

You m ay w is h to com m e nt on any furth e r action tak e n or conte m pl  ate d on our
concl  us ions . Ifyou ch oos e to offe r com m e nts , ple as e provide your com m e nts
w ith in th e ne xt 60 days . Ifyou w is h to dis cus s th e finalre port, pl
                                                                            e as e cal
                                                                                     lm e or
h ave your s taff contact Pam e l a J. Gardine r, Assistant Ins pe ctor Ge ne ralfor Audit,
at (410)9 65-9 700.




                                                   D avid C. W il
                                                                liam s

A ttach m e nt

cc:

O IG/ES

              e
IO Re ading Fil

O A Re ading File
           e
Subje ct Fil
F.UEH LING:pjk :02-02-9 8
9 6-61016.TL:Re port File
                                O ffice of th e Ins pe ctor Ge ne ral



K e nne th S. A pfe l

Com m is s ione r of SocialSe curity


Ins pe ctor Ge ne ral



Suppl e m e ntalSe curity Incom e Pl
                                   ans for A ch ie ving Se l
                                                           f-Support Pre pare d by

For-Profit O rganizations

O BJECTIVE

Th is m anage m e nt advis ory re port e ntitle d, “Suppl e m e ntalSe curity Incom e Pl
                                                                                       ans
for A ch ie ving Se lf-Support Pre pare d by For-Profit O rganizations ”(A-07-9 6-61016),
provide s th e re s ults of our re vie w of for-profit organizations th at pre pare Plans for
A ch ie ving Se lf-Support (PASS). O ur obje ctive s w e re to obtain inform ation on th e
fe e s ch arge d by th e s e organizations and th e s cope of th e ir s e rvice s .

BACKGROUND

Th e SocialSe curity D is abil  ity Ins urance (D I)program w as e s tabl      is h e d in 19 54
unde r titl e IIof th e SocialSe curity Act. Itw as d e s igne d to provide be ne fits to
dis able d w age e arne rs and th e ir fam ilie s in th e e ve nt th e fam il
                                                                            y w age e arne r
be cam e dis abl   e d. In 19 74, th e Suppl  e m e ntalSe curity Incom e (SSI)program w as
e s tabl
       is h e d, e xpanding dis abil ity cove rage to incl   ude individual  s w ith l  im ite d
incom e and re s ource s .

Th e PASS program w as e s tabl       is h e d as part of th e SSIprogram to as s is t dis abil    ity
re cipie nts w ith re turning to w ork and e ve ntual      ly re ducing or e lim inating SSIand D I
be ne fits . A PASS is a w ritte n pl     an, de s igne d s pe cifically for a dis able d individual   ,
w h ich ide ntifie s a w ork goaland th e ite m s and s e rvice s ne e de d to ach ie ve th at
goal  . To purch as e th e s e ite m s and s e rvice s , th e individualcan us e any additional
incom e and re s ource s , incl  uding w age s , D Ibe ne fit paym e nts , s avings , and any
oth e r une arne d incom e and re s ource s . Norm al       ly, additionalincom e or re s ource s
w oul  d m ak e th e individualine l  igibl  e for SSIpaym e nts or re duce th e paym e nt
am ount. H ow e ve r, th e SocialSe curity Adm inis tration (SSA )dis re gards additional
incom e and re s ource s w h e n de te rm ining th e individual      's SSIe l igibil
                                                                                    ity w h e n th e re
is an approve d PASS.

In th e pas t, PASSe s w e re us ual
                                   ly pre pare d by SSA fie l
                                                            d office (FO )s taff and
nonprofit dis ability advocacy groups re pre s e nting dis abl
                                                             e d individual
                                                                          s . M ore
Page 3 - K e nne th S. A pfe l




re ce ntly, for-profit organizations h ave be gun to pre pare PASSe s . Th e s e
organizations cl   aim to be advocacy groups re pre s e nting dis abl     e d individuals and
h ave initiate d outre ach e fforts . From M arch 19 9 0 to D e ce m be r 19 9 5, PASSe s
incre as e d approxim ate l y 600 pe rce nt from 1,546 to 10,322. Th e PASS
pre paration fe e paid to for-profit organizations is e xcl    ude d from countabl    e incom e
in de te rm ining SSIe l      ity s o, in e ffe ct, SSA is paying th e fe e .
                         igibil

In April19 9 6, SSA im pl e m e nte d ch ange s to th e PASS program to im prove q ual         ity
and cons is te ncy in proce s s ing th e pl ans . SSA is s ue d re vis e d Program O pe rations
M anualSys te m (PO M S)ins tructions and de ve l        ope d a s tandardize d PASS
appl ication form to include de tail   e d docum e ntation of al    lcos ts . Th e ins tructions
for PASS pre paration fe e s and re as onabl     e ne s s of PASS pre paration fe e s are bas e d
on s uch factors as th e pre pare r's invol   ve m e nt and num be r of h ours s e rvicing th e
claim ant (SIE00870.025C.4d. and 4e .).

A noth e r ch ange w as th e e s tablis h m e nt of a cadre of SSA e m pl  oye e s nationw ide to
be re s pons ibl  e for al                                                                   ate d
                          lPASS de cis ions . Th e cadre re ce ive d inte ns ive training re l
to dis abilitie s and vocationale ducation. A s of Nove m be r 19 9 6, th e re w e re
39 cadre s taff l    ocate d at 16 SSA office s w h o w e re re s pons ibl
                                                                         e for al lPASS
de cis ions . A l th ough w e h ad no data on th e num be rs of PASSe s proce s s e d, w e
note d th at from D e ce m be r 19 9 5 to D e ce m be r 19 9 6 th e num be r of approve d
PASSe s de cl    ine d from 10,322 to 4,704.

W e re vie w e d 124 PASSe s pre pare d by 17 for-profit pre pare rs and approve d by
SSA FO s in Col    orado. O n-s ite re vie w s w e re conducte d at FO s l      ocate d in D e nve r,
Lak e w ood, and Gre e l   e y from A pril1, 19 9 5 th rough M arch 31, 19 9 6 (be fore th e
PASS cadre w as in pl      ace ). W e ch os e th os e office s be caus e of th e l  arge num be r of
PASSe s th e y h ad re ce ive d from for-profit pre pare rs . W e inte rvie w e d SSA official      s,
including 20 m e m be rs of th e PASS cadre . W e al        s o inte rvie w e d 2 for-profit PASS
pre pare rs , 2 vocationalre h abil  itation couns e l ors and 20 PASS participants . Th e
pre pare rs w e re s e l
                       e cte d be caus e th e y h ad pre pare d th e large s t num be r of PASSe s
approve d by th e th re e FO s w h ich w e vis ite d.

RESULTS O F REVIEW

Th e for-profit pre pare rs incl  ude d in our re vie w re ce ive d re im burs e m e nt for th e
am ount of th e PASS pre paration fe e ch arge d as l       ong as th e PASS w as approve d.
Th e fe e s for th e 124 PASSe s total     e d $52,656 and range d from $50 to $832. Th e
fe e s w e re for both initialPASSe s and e xte ns ions of e xis ting pl    ans . According to
inte rvie w s w ith FO s taff re s pons ibl e for approving PASSe s , th e y w e re not provide d
training in th e PASS program or traine d to de te rm ine th e re as onabl        e ne s s of fe e s .
Furth e rm ore , SSA fail e d to e s tablis h a l
                                                im it on th e PASS pre paration fe e th at coul        d
Page 4 - K e nne th S. A pfe l




be e xcl ude d from countabl   e incom e in de te rm ining an individual     's SSIe l   igibility.
A s a re s ul
            t, for-profit pre pare rs coul d ch arge w h ate ve r fe e th e y de s ire d w ith out
providing de tail e d s upport for th e s e rvice s provide d.

Inte rvie w s w ith PASS Pre pare rs and Participants

W e inte rvie w e d 2 for-profit th ird-party pre pare rs w h o de ve l
                                                                      ope d 67 of th e
124 PASSe s . W e al     s o inte rvie w e d 20 PASS participants w h os e PASSe s w e re
pre pare d by th e s e tw o pre pare rs .

O ne th ird-party pre pare r de ve l    ope d 56 of th e 124 PASSe s . Th is pre pare r
pos s e s s e d a M as te rs D e gre e in Ps y ch ol ogy, 15 ye ars of re h abil           ate d
                                                                                itation-re l
e xpe rie nce , and 7 ye ars of PASS pre paration e xpe rie nce . W h e n as k e d h ow th e
pre pare r de te rm ine d w h e th e r an individualw as a good PASS candidate , th e
pre pare r s tate d th at a vocationalanal        y s is w as pe rform e d on al
                                                                               lindividual  s b e fore
com pl  e ting a PASS.

Th is pre pare r ch arge d a flat fe e for de ve l
                                                 oping PASSe s : $500 for a PASS and
$250 for a PASS e xte ns ion. Th e fe e s ch arge d w e re s trictl y for PASS pre paration
and did not incl   ude any oth e r PASS service s , s uch as m onitoring or fol    low -up w ith
th e PASS participant. W h e n as k e d h ow th e fe e s w e re de rive d, th e pre pare r s tate d
th at th e fe e w as bas e d on th e ave rage Gove rnm e nt e m ploye e 's annuals al  ary of
$35,000. Th e re pre s e ntative s tate d th at h e ch arge d $500 pe r approve d PASS and
trie d to ave rage 100 approve d PASSe s annual       y. 	According to th e pre pare r, th is
                                                      l
am ount, afte r taxe s , w oul d e q ualth e ave rage Gove rnm e nt e m pl oye e ’
                                                                                 s annual
s alary. According to PO M S (SIE00870.025C.4d.), PASS pre paration fe e s bas e d
on a fl  at rate are not al low abl e.

Bas e d on th is pre pare r's m e th od of de riving pre paration fe e s , w e be l
                                                                                  ie ve h e m ay
h ave be e n m axim izing profits by ch arging fe e s th at w e re not s upporte d by th e
tim e or w ork invol  ve d in pre paring th e PASS as re q uire d by PO M S (as cite d
above ). At th e tim e of our inte rvie w , th e pre pare r s tate d th at h e w as no l onge r
pre paring PASSe s due to ch ange s in SSA 's approvalproce s s s ince e s tabl         is h m e nt
of th e PASS cadre .

Th e inte rvie w re s ul   ts for PASS participants w h o us e d th is pre pare r w e re ge ne ral     l
                                                                                                       y
inconcl   us ive . H ow e ve r, w e note d th at 8 of 10 inte rvie w e e s s tate d th at th e
pre pare r did not provide any m onitoring, coach ing, or training. Furth e rm ore , onl               y
5 of 10 inte rvie w e e s th ough t th at th e y coul     d m e e t th e ir occupationalobje ctive in
th e s pe cifie d tim e fram e and be com e inde pe nde nt of SSA as s is tance . O ur
s ubs e q ue nt re vie w of th e s tatus of th e s e 10 participants indicate d th at 3 w e re
s ucce s s ful, i.e . th e ir SSA be ne fits w e re e ith e r re duce d or e l im inate d as a dire ct
Page 5 - K e nne th S. A pfe l




re s ul
      t of be ing a PASS participant. Th e re m aining s e ve n PASS participants w e re
not s ucce s s ful
                 . Appe ndix A contains th e re s ul
                                                   ts of our inte rvie w s .

Th e oth e r th ird-party pre pare r w e inte rvie w e d de ve l ope d 11 of th e 124 PASSe s .
Th is pre pare r pos s e s s e d a Bach e lors D e gre e in Re h abil
                                                                    itation, 15 ye ars of
re h abilitation-re late d e xpe rie nce , and 6 ye ars of PASS pre paration e xpe rie nce .
Th is pre pare r at one tim e w as a PASS participant w h os e occupationalobje ctive
w as to be com e a PASS pre pare r. W h e n as k e d h ow th e pre pare r de te rm ine d
w h e th e r or not an individualw as a good PASS candidate , th e pre pare r s tate d th at
h e coul   d m ak e s uch a de te rm ination by inte rvie w ing th e individualfor 5 m inute s .

Th e fe e s ch arge d by th is pre pare r range d from $588 to $832. A ccording to th e
pre pare r, th e fe e s h e ch arge d incl    ude d not onl
                                                          y PASS pre paration, but additional
                                                                                              ation
s e rvice s , re fe rre d to as m onitoring. Bas e d on th is pre pare r's h igh fe e s in re l
to oth e r for-profit pre pare rs and h is adm is s ion of th e s h ort inte rvie w tim e us e d, w e
be l ie ve th e fe e s w e re e xce s s ive .

Th e inte rvie w re s ul ts for PASS participants w h o us e d th is pre pare r w e re ge ne ral     l
                                                                                                     y
inconcl    us ive . H ow e ve r, w e note d th at 8 of 10 inte rvie w e e s s tate d th at th e
pre pare r did not provide any m onitoring, coach ing, or training. In addition, onl               y
2 of 10 inte rvie w e e s th ough t th at th e y coul   d m e e t th e ir occupationalobje ctive in
th e s pe cifie d tim e fram e and be com e inde pe nde nt of SSA as s is tance .
Furth e rm ore , w e note d th at 6 of 10 inte rvie w e e s s tate d th at th e fe e ch arge d w as
inappropriate for th e s e rvice provide d. O ur s ubs e q ue nt re vie w of th e s tatus of
th e s e
10 participants indicate d th at 2 w e re s ucce s s ful     , i.e . th e ir SSA be ne fits w e re
e ith e r re duce d or e lim inate d as a dire ct re s ult of be ing a PASS participant. Th e
re m aining e igh t PASS participants w e re not s ucce s s ful        . Appe ndix B to th is re port
contains th e re s ul  ts of our inte rvie w s .

Inte rvie w s W ith VocationalRe h abil
                                      itation Couns e l
                                                      ors

W e inte rvie w e d tw o couns e lors from th e Col   orado D e partm e nt of Vocational
Re h abil
        itation (VR). O ne couns e l    or h ad a M as te rs D e gre e in Couns e l

                                                                                  ing, 20 ye ars
of VR e xpe rie nce , and 3 ye ars of PASS pre paration e xpe rie nce . Th e oth e r

couns e lor h ad a M as te rs D e gre e in Re h abil
                                                   itation, 20 ye ars of VR e xpe rie nce , and

8 ye ars of PASS pre paration e xpe rie nce .

Both couns e l ors b e l
                       ie ve d th at th e PASS program w as b e ne ficialto dis abl    ed
individuals w h o w e re capabl    e of ach ie ving an occupationalobje ctive . H ow e ve r,
th e couns e l
             ors s tate d th at th e y w ork e d w ith an individualfor an e xte nde d pe riod
of tim e and pe rform e d e xte ns ive vocationalte s ting to de te rm ine w h e th e r an
Page 6 - K e nne th S. A pfe l




individualw as capabl     e of ach ie ving an occupationalobje ctive . O nl     y afte r it w as
de te rm ine d th at an individualcoul   d ach ie ve an occupationalobje ctive w as a PASS
initiate d. Th e VR couns e l  ors al s o m onitore d PASS participants for th e duration of
th e PASS be caus e th e y be l ie ve d m onitoring w as e s s e ntialto e ns ure th e s ucce s s of
PASS participants .

Th e prim ary diffe re nce s be tw e e n th e VR couns e l  ors and th e for-profit pre pare rs
w e re not th e ir q ualifications or e xpe rie nce , but rath e r th e ir involve m e nt w ith an
individualprior to initiating a PASS. Th e VR couns e l           ors s tate d th at th e y w ork e d
e xte ns ive l
             y w ith an individualbe fore initiating a PASS, w h e re as one for-profit
pre pare r s tate d th at th e de te rm ination as to w h e th e r an individualw as a good
PASS candidate coul        d be done th rough a 5-m inute inte rvie w .

Inte rvie w s w ith SSA Cadre M e m be rs

W e inte rvie w e d 20 of th e 39 SSA cadre m e m be rs re s pons ibl    e for PASS de cis ions .
 Th e cadre m e m be rs s tate d th at PASS pre paration fe e s w e re be ing re vie w e d for
re as onabl   e ne s s and PASS pre pare rs w e re re q uire d to provide de tailed
docum e ntation of fe e s ch arge d. Th e cons e ns us of th e cadre m e m be rs w as th at
PASS pre paration s h oul    d be l im ite d to 10 h ours at a re as onabl e fe e range of $20
to $35 pe r h our. O ur re vie w did not incl     ude PASS de cis ions m ade by th e cadre ;
th e re fore , w e did not s ubs tantiate th e com m e nts re ce ive d from th e cadre .

CO NCLUSIO NS

M any ch ange s h ave occurre d in th e PASS program s ince w e conducte d our audit
fie l
    dw ork . Th e PASSe s w e re vie w e d w e re approve d by SSA FO s taff pos s e s s ing
littl
    e or no e xpe rie nce or training in th e PASS program . In contras t, PASSe s are
curre ntly approve d by a cadre of SSA e m pl     oye e s inte ns ive l
                                                                      y traine d in th e PASS
program , incl uding vocationale val   uation.

None th e le s s , th e e vide nce indicate d th at th e re is a ne e d for im prove d control    s
ove r th e am ount of acce ptabl        e pre pare rs ' PASS fe e s and guide l  ine s for th e s cope
of s e rvice s to be provide d. Th e inte rvie w s s ugge s te d th e ne e d for be tte r up-front
vocationalas s e s s m e nts and fol      low -up m onitoring, coach ing and training to
incre as e th e l       ih ood of th e s e individual
                   ik e l                                          e to ach ie ve th e ir occupational
                                                       s b e ing abl
obje ctive s .

SSA 's Fis calYe ar 19 9 8 l
                           e gis l
                                 ative age nda (A ppe ndix C)incl ude s a propos alth at
w ould auth orize l
                  im its on am ounts th at coul d be e xclude d as PASS pre paration
Page 7 - K e nne th S. A pfe l




fe e s . W e agre e th at l im its on PASS pre paration fe e s s h oul d be e s tabl   is h e d in orde r
to pre ve nt th e pos s ibil ity of for-profit pre pare rs ch arging e xce s s ive fe e s . Fail  ure to
e s tabl is h s uch l
                    im its l
                           e ave s th e PASS program vul      ne rabl
                                                                    e to abus e .

SSA COMMENTS

SSA ge ne ral    l
                 y agre e d w ith our conclus ions , com m e nting th at im prove m e nts h ave
be e n m ade to th e PASS program s ince w e be gan our re vie w . PASSe s are now
approve d by a cadre of SSA e m pl       oye e s , traine d in th e PASS program and
vocationale val     uation. A s tandardize d PASS appl       ication h as b e e n de ve l
                                                                                        ope d and
Program O pe rations M anualSys te m ins tructions h ave be e n re vis e d. SSA be l          ie ve s
th at th e s e im prove m e nts re duce opportunitie s for m is us e of th e program .

Re garding a l  e gis l
                      ative propos alto auth orize l       im its on PASS pre paration fe e s ,
pre l
    im inary re s ul ts indicate th e cadre is now m ore cons is te ntl      y control   l
                                                                                         ing th e
am ount of fe e s auth orize d. SSA be l     ie ve s th at th e training provide d to th e cadre
w il
   lh e l
        p th e m to focus on th e re as onabl      e ne s s , appropriate ne s s , and allow abil  ity of
PASS pre paration cos ts . SSA w il       lcontinue to m onitor cadre pe rform ance in th is
are a and w il lcons ide r l       ation, if de e m e d ne ce s s ary. Th e ful
                             e gis l                                             lte xt of SSA ’  s
com m e nts is incl  ude d in A ppe ndix D .




                                                                D avid C. W il
                                                                             liam s
A PPEND ICES

                                                                                   A PPEND IX A



                                                    1
                              INTERVIEW S W ITH PASS PARTICIPANTS
                                            “PREPARER O NE”

                                                              2
                          Q UESTIO NS ASKED BY TH E O IG                           INTERVIE
                                                                                   W
                                                                                     RESULTS
                                                                                    YES   NO
    Are you currently participating in the PASS program?                              4    6
    Do you understand the PASS program and your responsibilities?                    10    0
    Were you aware of the PASS program prior to meeting the                           9    1
    third-party preparer?
    Did the third-party preparer explain the PASS program to you?                   10     0
    Did your third-party preparer follow up on your progress?                        8     2
    Did the third-party preparer provide you with monitoring, coaching, or           2     8
    training?
                              3
    Were you aware that SSA will help prepare your PASS at no charge?                1     9
    Were you satisfied with the third-party preparer services?                       9     1
    Did the third-party preparer charge a flat fee?                                 10     0
    Did you feel the fee charged was appropriate for the service provided?           7     3
    Were you required to pay the fee after PASS approval?                           10     0
    Do you think you will be able to meet your occupational objective in the         5     5
    specified time frame and successfully be removed from the SSA roles?
    Are you currently working toward your occupational objective?                    6     4
    Did you chose your PASS occupational objective?                                 10     0
    Do you think third-party preparers should be paid if SSA will do the PASS at    10     0
    no charge?
    Would you have pursued a PASS if it had not included Medicaid coverage?         10     0



1
    Pl
     ans for A ch ie ving Se l
                             f-Support
2
    O ffice of th e Ins pe ctor Ge ne ral

3
    Th e SocialSe curity Adm inis tration
                                                                               APPENDIX B



                      INTERVIEWS WITH PASS PARTICIPANTS
                                      “PREPARER TW O ”

                   QUESTIONS ASKED BY THE OIG                                  INTERVIE
                                                                               W
                                                                                 RESULTS
                                                                                YES   NO
Are you currently participating in the PASS program?                              3    7
Do you understand the PASS program and your responsibilities?                    10    0
Were you aware of the PASS program prior to meeting the                           4    6
third-party preparer?
Did the third-party preparer explain the PASS program to you?                   10    0
Did your third-party preparer follow up on your progress?                       10    0
Did the third-party preparer provide you with monitoring, coaching, or           2    8
training?
Were you aware that SSA will help prepare your PASS at no charge?                0   10
Were you satisfied with the third-party preparer services?                       9    1
Did the third-party preparer charge a flat fee?                                 10    0
Did you feel the fee charged was appropriate for the service provided?           4    6
Were you required to pay the fee after PASS approval?                           10    0
Do you think you will be able to meet your occupational objective in the         2    8
specified time frame and successfully be removed from the SSA roles?
Are you currently working toward your occupational objective?                    6    4
Did you chose your PASS occupational objective?                                 10    0
Do you think third-party preparers should be paid if SSA will do the PASS at    10    0
no charge?
Would you have pursued a PASS if it had not included Medicaid coverage?         10    0
                                          APPENDIX E



            M A JO R REPO RT CO NTRIBUTO RS


Office of the Inspector General

William Fernandez, Audit Director
Fredric Uehling, Deputy Director
Mark Bailey, Senior Auditor
Ronald Bussell, Auditor
